                                               OFFICE OF WORKERS’
                                               COMPENSATION PROGRAMS

Office of Inspector General—Office of Audit





                                               DISTRICT OF COLUMBIA WORKMEN’S
                                               COMPENSATION ACT SPECIAL FUND
                                               FINANCIAL STATEMENTS AND
                                               INDEPENDENT AUDITORS’ REPORT
                                               September 30, 2012 and 2011


                                                This report was prepared by KPMG, LLP, under contract to the U.S.
                                                Department of Labor, Office of Inspector General, and by acceptance, it
                                                becomes a report of the Office of Inspector General.

                                                                              ____________________________
                                                                               Assistant Inspector General for Audit




                                                                                   Date Issued:          March 29, 2013
                                                                                Report Number:         22-13-005-04-432
                                           District of Columbia Workmen’s Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN’S

                            COMPENSATION ACT SPECIAL FUND 


                                     TABLE OF CONTENTS
                                                                                                 Page
ACRONYMS                                                                                             iii

Management’s Discussion and Analysis
   Mission and Organizational Structure                                                              1

   Financial Highlights                                                                              2

   Performance Goals and Results                                                                     2

   Internal Controls                                                                                 3

   Known Risks and Uncertainties                                                                     4

   Limitations of the Financial Statements                                                           4

Independent Auditors’ Report                                                                         5

FINANCIAL STATEMENTS
   Balance Sheets                                                                                  17 

   Statements of Net Cost                                                                          18 

   Statements of Changes in Net Position                                                           19 

   Statements of Budgetary Resources                                                               20 


NOTES TO THE FINANCIAL STATEMENTS
   Note 1 – Summary of Significant Accounting Policies                                             21 

   Note 2 – Funds with U.S. Treasury                                                               24 

   Note 3 – Investments, Net                                                                       25 

   Note 4 – Accounts Receivable, Net                                                               26 

   Note 5 – Other Liabilities                                                                      27 

   Note 6 – Status of Budgetary Resources                                                          28 

   Note 7 – Reconciliation of Budgetary Resources Obligated 

            to Net Cost of Operations                                                              29 

   Note 8 – Concentration of Risk                                                                  29 





  _________________________________________________________________________________________
                                               U.S. Department of Labor – Office of Inspector General
i                                                                 Report Number: 22-13-005-04-432
                                           District of Columbia Workmen’s Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report




                    THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





   _________________________________________________________________________________________
                                                U.S. Department of Labor – Office of Inspector General
ii                                                                 Report Number: 22-13-005-04-432
                                           District of Columbia Workmen’s Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND


                                            Acronyms



AUP           Agreed Upon Procedures

DCCA          District of Columbia Workmen’s Compensation Act

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

Fund          District of Columbia Workmen’s Compensation Act Special Fund

FY            Fiscal Year

LHWCA         Longshore and Harbor Workers’ Compensation Act

OMB           Office of Management and Budget

OWCP          Office of Workers’ Compensation Programs

Program       District of Columbia Workmen’s Compensation Act Program

SBR           Statement of Budgetary Resources

SFFAS         Statements of Federal Financial Accounting Standards

U.S.C.        United States Code

USSGL         United States Standard General Ledger




  _________________________________________________________________________________________
                                               U.S. Department of Labor – Office of Inspector General
iii                                                               Report Number: 22-13-005-04-432
                                           District of Columbia Workmen’s Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report




                    THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK





  _________________________________________________________________________________________
                                               U.S. Department of Labor – Office of Inspector General
iv                                                                Report Number: 22-13-005-04-432
                                         District of Columbia Workmen’s Compensation Act Special Fund
                                                   Financial Statements and Independent Auditors’ Report



                          DISTRICT OF COLUMBIA WORKMEN’S
                          COMPENSATION ACT SPECIAL FUND
                     Management’s Discussion and Analysis (unaudited)
                         Years ended September 30, 2012 and 2011



Mission and Organizational Structure

Two Special Funds are administered by the Office of Workers’ Compensation Program
(OWCP) under Section 44 of the Longshore Harbor Workers’ Compensation Act (LHWCA);
the Longshore and Harbor Workers’ Compensation Act Special Fund created under the
original Act in 1927 and the Special Fund under the District of Columbia Workmen’s
Compensation Act of 1928 (DCCA). These funds were established for the primary purpose of
equitably distributing among all employers the liabilities associated with second injury claims
(a “second injury” is an injury to a worker which, in combination with an existing permanent
partial impairment, results in the worker’s increased permanent disability or death).

The reporting entity is the District of Columbia Workmen’s Compensation Act Special Fund
(the Fund). Organizationally the Fund is administered by the Department of Labor (DOL),
OWCP, Division of Longshore and Harbor Workers’ Compensation program (DLHWC). The
DLHWC has direct responsibility for administration of the Fund. The mission of the Fund is to
effectively administer a program of compensation and medical benefits to covered workers
who are injured on the job or suffer from occupational disease. The DLHWC has direct
responsibility for all aspects of the administration of the Fund.

The Fund supports the program mission by providing compensation, and in certain cases,
medical care payments to District of Columbia employees for work related injuries or death.
Effective July 26, 1982, the District of Columbia became responsible for administration and
operation of a separate special fund to cover post July 26, 1982, injury cases.

The DCCA provides medical benefits, compensation for lost wages and rehabilitation services
for job-related injuries, diseases or death of certain private-sector workers in the District of
Columbia. Generally, benefits are paid directly from private funds by an authorized self-
insured employer or through an authorized insurance carrier. Cases meeting the requirements
of the LHWCA as extended to DCCA are paid from the Fund comprised primarily of employer
contributions (assessments) and administered by the DLHWC. In fiscal years (FY) 2012 and
2011, 472 and 498 injured workers and their dependents received compensation benefits from
the Fund.

Additionally, the DCCA incorporates Section 10(h) of the LHWCA, which provides annual
wage increase compensation (cost of living adjustments). Fifty percent of this annual wage
increase for pre-1972 compensation cases is paid by Federal appropriated funds, and fifty
percent is paid by the Fund through the annual assessment.

                                                 U.S. Department of Labor – Office of Inspector General
                                            1                       Report Number: 22-13-005-04-432
                                        District of Columbia Workmen’s Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report



                          DISTRICT OF COLUMBIA WORKMEN’S
                          COMPENSATION ACT SPECIAL FUND
                     Management’s Discussion and Analysis (unaudited)
                         Years ended September 30, 2012 and 2011



Appropriated funding for Section 10(h) is not reflected in the accompanying financial
statements. Appropriated funding is reflected in the Federal Employees Compensation Act
Special Benefit Fund.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the
Custodian, holding the funds in trust. The Fund is not property of the United States, but can
only be disbursed as specified in Section 44(i) of the LHWCA. Administrative services for
operating the Fund are provided by OWCP on behalf of the Fund. Funding for these costs is
primarily provided by Federal Appropriations to OWCP’s Salaries and Expense account,
which is not part of the Fund.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring assessments
paid by self-insured employers and insurance carriers and totaled $8,157,755 in FY 2012.
This compares with assessment revenue of $7,877,262 for FY 2011.

In addition, investment income for the Fund was $1,229 for FY 2012 compared to $2,326 for
FY 2011. The average interest rate earned during FY 2012 was 0.05% compared to 0.07% for
FY 2011.

The Fund’s costs are slowly declining over the long-term as claims close, but remained
relatively stable compared to FY 2011; $8,797,839 for FY 2012 compared to $9,073,261 for
FY 2011. Proceeds of the Fund are used for payments under: Section 8(f) for second injury
claims; Section 10(h) for initial and subsequent annual adjustments in compensation for
permanent total disability or related death from injuries which occurred prior to the effective
date of the 1972 LHWCA amendments; and Section 18(b) for compensation to injured
workers in cases of employer default.

Performance Goals and Results

The DLHWC’s administration of the Fund supports DOL’s Strategic Goal 4 – Secure health
benefits and, for those not working, provides income security. This goal broadly promotes the
economic security of workers and families. In particular, the DLHWC’s administration of the
Fund supports Performance Goal 4.2 – Reduce the Consequences of Work-Related Injuries.
DOL plays a large role in ensuring that worker benefits are protected and that employers
administer benefit programs in an appropriate way. The DLHWC assists in meeting this

                                                U.S. Department of Labor – Office of Inspector General
                                           2                       Report Number: 22-13-005-04-432
                                        District of Columbia Workmen’s Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report



                          DISTRICT OF COLUMBIA WORKMEN’S
                          COMPENSATION ACT SPECIAL FUND
                     Management’s Discussion and Analysis (unaudited)
                         Years ended September 30, 2012 and 2011



outcome goal by establishing the long term performance goal of ensuring sufficient funds are
assessed to fund the annual payments, and by prompt payment to the beneficiaries. In FY
2012, assessments were sufficient to cover the costs, and no beneficiaries suffered a delayed
payment.

Internal Controls

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management, Insurance and Assessment is comprised of four employees and one supervisor.
It guards against unethical behavior by segregated duties and assigning roles to each
function. Much of the oversight, evaluation, monitoring, control and supervisory activity is
informal and face-to-face.

Management communicates all procedural, policy, and operating goals to staff with regular
staff meetings, a written procedure manual, e-mails, and frequent individual communications
regarding changes, problems and issues.

All codes, statutes, and regulations governing the conduct of Federal employees apply to
Longshore Division employees. Examples include privacy statutes, cash handling procedures,
and conflict of interest regulations.

For cases paid by the Fund, a District Director or Administrative Law Judge issues a formal
Compensation Order to identify the payee and set the amount. Five employees review each
new case before making the payment to ensure accuracy.

With the exception of certain internal control deficiencies noted in the Independent Auditors’
Report, monthly cash basis statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the Statement of Transactions (SF-224) and the
Statement of Differences (FMS-6652) all provide current, reliable, and accurate information.




                                                U.S. Department of Labor – Office of Inspector General
                                           3                       Report Number: 22-13-005-04-432
                                          District of Columbia Workmen’s Compensation Act Special Fund
                                                    Financial Statements and Independent Auditors’ Report



                           DISTRICT OF COLUMBIA WORKMEN’S

                           COMPENSATION ACT SPECIAL FUND 

                      Management’s Discussion and Analysis (unaudited)
                          Years ended September 30, 2012 and 2011



Known Risks and Uncertainties

The Fund makes assessments on authorized insurers and self-insurers one year at a time for
current expenses; there is no reserve for future Fund obligations. In keeping with the
requirement of Section 44 of the LHWCA, obligations are paid as they are incurred.
Assessments are based on compensation and medical benefits paid in the prior calendar
year. The District of Columbia Workmen’s Compensation Act of 1928 has been repealed and
the Fund only assesses based on payments in cases that arose prior to July 26, 1982. The
annual Fund assessment is assessed against a shrinking base of industry payments. These
payments are concentrated among a relatively few insurance carriers and self-insured
employers (51 in total). For example, the largest ten payers of assessments (including three
self-insured employers) fund 72.9% of the Fund’s assessments. If one or more of the largest
payers became insolvent and was unable to pay their assessment obligations, temporary
collection issues would result, necessitating special, unscheduled assessments or other
actions to ensure the Fund has sufficient liquid resources to fund claims liabilities as they
come due.

Limitations of the Financial Statements

The following are limitations of the financial statements:

	 The financial statements have been prepared to report the financial position and results of
   operations of the Fund, pursuant to the requirements of the Longshore and Harbor
   Workers’ Compensation Act (33 U.S.C. 944(j)).
	 While the statements have been prepared from the books and records of the Fund in
   accordance with U.S. Generally Accepted Accounting Principles for U.S. Government
   entities and the formats prescribed by the Office of Management and Budget, (OMB), the
   statements are different from the financial reports used to monitor and control budgetary
   resources which are prepared from the same books and records.
	 The statements should be read with the realization that they are for a component of the
   U.S. Government, a sovereign entity, that liabilities cannot be liquidated without the
   enactment of an appropriation, and that the payment of all liabilities other than for contracts
   can be abrogated by the sovereign entity.




                                                  U.S. Department of Labor – Office of Inspector General
                                             4                       Report Number: 22-13-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report


                           KPMG LLP
                           Suite 12000
                           1801 K Street, NW
                           Washington, DC 20006




                            Independent Auditors’ Report


Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

Deputy Inspector General
U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) District of Columbia Workmen’s Compensation Act Special Fund (the
Fund) as of September 30, 2012 and 2011, and the related statements of net cost,
changes in net position, and budgetary resources (hereinafter referred to as “financial
statements” or “basic financial statements”) for the years then ended. The objective of
our audits was to express an opinion on the fair presentation of these financial
statements. In connection with our fiscal year (FY) 2012 audit, we also considered the
Fund’s internal control over financial reporting and tested the Fund’s compliance with
certain provisions of applicable laws, regulations, and contracts that could have a
direct and material effect on these financial statements.

Summary
As stated in our opinion on the financial statements, we concluded that the Fund’s
financial statements as of and for the years ended September 30, 2012 and 2011, are
presented fairly, in all material respects, in conformity with U.S. generally accepted
accounting principles.

As discussed in our opinion on the financial statements, management changed the
Fund’s presentation for reporting the Statement of Budgetary Resources in FY 2012.

Our consideration of internal control over financial reporting resulted in identifying
certain deficiencies that we consider to be significant deficiencies, as defined in the
Internal Control over Financial Reporting section of this report, as follows:

1. Controls over the Financial Reporting Process Need Improvement
2. Controls over the Assessments Subsidiary Ledger Need Improvement

We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control over Financial
Reporting section of this report.


                                                     U.S. Department of Labor – Office of Inspector General
                                           5                            Report Number: 22-13-005-04-432
                           KPMG LLP is a Delaware limited liability partnership,
                           the U.S. member firm of KPMG International Cooperative
                           (“KPMG International”), a Swiss entity.
                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




The results of our tests of compliance with certain provisions of laws, regulations, and
contracts disclosed no instances of noncompliance or other matters that are required
to be reported under Government Auditing Standards, issued by the Comptroller
General of the United States, and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

The following sections discuss our opinion on the Fund’s financial statements; our
consideration of the Fund’s internal control over financial reporting; our tests of the
Fund’s compliance with certain provisions of applicable laws, regulations, and
contracts; and management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying balance sheets of the U.S. Department of
Labor’s District of Columbia Workmen’s Compensation Act Special Fund as of
September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Labor’s District of Columbia
Workmen’s Compensation Act Special Fund as of September 30, 2012 and 2011,
and its net costs, changes in net position, and budgetary resources for the years then
ended, in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1(j) to the financial statements, management changed the
Fund’s presentation for reporting the Statement of Budgetary Resources in FY 2012,
based on new reporting guidance under OMB Circular No. A-136, Financial Reporting
Requirements. As a result, the Fund’s Statement of Budgetary Resources for FY
2011 has been adjusted to conform to the current year presentation.

U.S. generally accepted accounting principles require that the information in the
Management’s Discussion and Analysis be presented to supplement the basic
financial statements. Such information, although not a part of the basic financial
statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the basic financial
statements in an appropriate operational, economic, or historical context. We have
applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of
America, which consisted of inquiries of management about the methods of preparing
the information and comparing the information for consistency with management’s
responses to our inquiries, the basic financial statements, and other knowledge we
obtained during our audits of the basic financial statements. We do not express an
opinion or provide any assurance on the information because the limited procedures


                                          U.S. Department of Labor – Office of Inspector General
                                     6                       Report Number: 22-13-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report




do not provide us with sufficient evidence to express an opinion or provide any
assurance.

Internal Control over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does
not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct misstatements on a timely basis.
A material weakness is a deficiency, or a combination of deficiencies, in internal
control such that there is a reasonable possibility that a material misstatement of the
entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

Our consideration of internal control over financial reporting was for the limited
purpose described in the Responsibilities section of this report and was not designed
to identify all deficiencies in internal control over financial reporting that might be
deficiencies, significant deficiencies or material weaknesses. In our FY 2012 audit, we
did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified certain
deficiencies in internal control over financial reporting described in Exhibit I that we
consider to be significant deficiencies in internal control over financial reporting. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

Exhibit II presents the status of the prior year material weakness.

Compliance and Other Matters
The results of our tests of compliance, as described in the Responsibilities section of
this report, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin
No. 07-04.

                                        *******

Responsibilities

Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control over financial
reporting; and complying with laws, regulations, and contracts applicable to the Fund.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
FY 2012 and 2011 financial statements of the Fund based on our audits. We


                                         U.S. Department of Labor – Office of Inspector General
                                    7                       Report Number: 22-13-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report




conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04
require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the Fund’s internal control over financial
reporting. Accordingly, we express no such opinion.

An audit also includes:

    Examining, on a test basis, evidence supporting the amounts and disclosures in
     the financial statements;
    Assessing the accounting principles used and significant estimates made by
     management; and
    Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our FY 2012 audit, we considered the Fund’s internal
control over financial reporting by obtaining an understanding of the Fund’s internal
control, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of
the Fund’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of the Fund’s internal control over financial reporting. We
did not test all controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the Fund’s FY 2012
financial statements are free of material misstatement, we performed tests of the
Fund’s compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws
and regulations specified in OMB Bulletin No. 07-04, as amended. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws, regulations, and contracts applicable to the Fund.
However, providing an opinion on compliance with laws, regulations, and contracts
was not an objective of our audit and, accordingly, we do not express such an
opinion.

                                         U.S. Department of Labor – Office of Inspector General
                                    8                       Report Number: 22-13-005-04-432
                                District of Columbia Workmen’s Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report




Management’s written response to the findings identified in our audit and presented in
Exhibit I was not subject to the auditing procedures applied in the audit of the Fund’s
financial statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of DOL’s management,
DOL’s Office of Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




March 29, 2013




                                        U.S. Department of Labor – Office of Inspector General
                                   9                       Report Number: 22-13-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I



1. Controls Over the Financial Reporting Process Need Improvement
In fiscal year (FY) 2012, the U.S. Department of Labor’s (DOL) Office of Workers’
Compensation Programs (OWCP) implemented corrective actions to address certain
prior year recommendations related to the review of the draft financial statements.
Specifically, the OWCP designed and implemented a checklist (referred to as the
Reconciliation Checklist) that outlined the requirements for performing a review of the
financial information in the draft financial statements. The checklist included procedures
for agreeing comparative prior year financial data to the prior year audited statements;
verifying financial data that was reported on multiple statements was consistent;
reconciling the financial data between the general ledger and subsidiary ledgers;
performing a budgetary to proprietary account relationship analysis; and analyzing
significant variances between current period and prior period financial information. As a
result, we noted certain improvements in financial reporting controls. However, we
continued to note the following issues:

Financial Reporting Process. During our review of the District of Columbia Workmen’s
Compensation Act (DCCA) Fund’s FY 2012 draft financial statements, we noted that the
Statement of Budgetary Resources (SBR) for FY 2012 and FY 2011 were not presented
in conformity with the Office of Management and Budget (OMB) Circular No. A-136,
Financial Reporting Requirements, new reporting guidance. For example, certain
required financial statement captions, including “Budget Authority, net,” were excluded
from the SBR section “Budget Authority and Outlays.” The OWCP informed us that they
did not present the SBR in conformity with OMB Circular No. A-136 because they
believed the excluded information was captured in other sections of the SBR. The
OWCP subsequently corrected these presentation errors in the final year-end financial
statements.

We also noted that certain key financial reporting controls were not performed in a
timely manner. For example, the year-end budgetary to proprietary account relationship
analysis was not prepared until December 11, 2012. In addition, the OWCP
experienced delays in preparing the financial statements at year-end. The draft FY 2012
financial statements were initially due on November 22, 2012; however, the OWCP was
not able to complete the initial draft financial statements until December 14, 2012.

During the FY 2012 audit, we also determined that management had not performed an
analysis to assess whether certain administrative costs and rehabilitation services paid
on behalf of the DCCA Special Fund were properly accounted for in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government. Although this matter
was identified and presented to the OWCP management in November 2012, sufficient
research to resolve these issues in a timely manner was not performed until
February 2013. This occurred primarily because the OWCP did not have a formal


                                           U.S. Department of Labor – Office of Inspector General
                                    10                        Report Number: 22-13-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I



process in place to ensure significant financial reporting issues were researched,
properly resolved, and documented in a timely manner.

The issues noted above increased the risk that the Fund’s financial statements could be
misstated or not presented in conformity with U.S. generally accepted accounting
principles.

The Government Accountability Office, Standards for Internal Control in the Federal
Government (Standards), states:

   	 Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

   	 Internal control should provide reasonable assurance that the objectives of
      the agency are being achieved relative to reliability of financial reporting,
      including reports on budget execution, financial statements, and other
      reports for internal and external use and compliance with applicable laws
      and regulations.

   	 Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states:

      Control deficiencies exist when the design or operation of a control does
      not allow management or employees, in the normal course of performing
      their assigned functions, to prevent or detect misstatements on a timely
      basis. A design deficiency exists when a control necessary to meet the
      control objective is missing or an existing control is not properly designed,
      so that even if the control operates as designed the control objective is not
      always met.

Journal Entries. During our FY 2012 audit, we identified certain deficiencies during our
testing of a sample of ten journal entries recorded in the general ledger for the period
October 1, 2011, through September 30, 2012. Specifically, we identified two journal
entries that did not accurately reflect the underlying events and transactions. As a result

                                           U.S. Department of Labor – Office of Inspector General
                                    11                        Report Number: 22-13-005-04-432
                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                          Significant Deficiencies
                                                                                          Exhibit I



of the first journal entry, Deferred Revenue was understated by $1 million and
Assessment Revenue was overstated by the same amount. The second journal entry
resulted in an understatement of Accounts Receivable, net, and Other Liabilities of
$426,685. These errors were corrected as of September 30, 2012.

The exceptions above were caused by insufficient review of journal entries by the
OWCP supervisors to ensure that journal entries were properly prepared and supported
before posting to the general ledger.

In addition, we identified two journal entries during our testing over benefit
overpayments that were not posted in accordance with the U.S. Standard General
Ledger (USSGL). These entries were to record the change in overpayments from
claimants in the general ledger but were incorrectly posted to Benefit Expense instead
of Other Expenses Not Requiring Budgetary Resources. As a result of these errors, we
inspected the remaining ten journal entries used to record the change in overpayments
from claimants and noted that they were also not in accordance with the USSGL. These
exceptions occurred because management continued to use a general ledger posting
model that was not in accordance with the USSGL. Although management
acknowledges that changes were required, competing priorities prevented the
completion of all necessary corrections of misclassified amounts in the general ledger
for FY 2012. There was no impact on the presentation of amounts in the financial
statements as a result of these exceptions.

The Standards state:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

In addition, the USSGL contains the chart of accounts that provides the basic
accounting structure for Federal agencies’ general ledger systems. It incorporates both
proprietary and budgetary accounts. It also provides the accounting transactions for
events occurring throughout the Federal Government. These transactions illustrate the
proper proprietary and budgetary entries for each accounting event.

To address the issues above, the OWCP Acting Director should:

   1) Update the Reconciliation Checklist to include procedures for ensuring new
      financial reporting requirements are properly incorporated into the financial
      statements and notes.


                                          U.S. Department of Labor – Office of Inspector General
                                   12                        Report Number: 22-13-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I



   2) Establish appropriate due dates to ensure key financial reporting controls, such
      as the budgetary to proprietary account relationship analysis, and the preparation
      of draft financial statements are completed in a timely manner.

   3) Develop and implement a formal process for promptly researching and resolving
      significant financial reporting issues that are identified. In addition, resolution of
      each issue should be formally documented and retained to support the financial
      statements’ compliance with U.S. generally accepted accounting principles.

   4) Provide training to applicable supervisors to ensure they are performing sufficient
      reviews of journal entries and related documentation before the entries are
      posted.

   5) Develop and implement procedures to properly record transactions related to the
      change in overpayments from claimants in the future.

Management’s Response

Management concurs with the recommendations. The Reconciliation Checklist will be
updated to include deadlines for monthly, quarterly and year end reporting
requirements. The checklist will also be updated to add requirements for verifying the
format of the statements with OMB A-136, A-11 and the USSGL.

OWCP has been making a concerted effort to recruit and hire new employees with
extensive knowledge of the USSGL, as well as, expertise in reviewing journal entries
and the associated supporting documentation. It is management’s opinion that these
efforts will improve our controls over journal entries. Additionally, a list of all journal
entries will be compiled by month, quarter and year end to ensure that all entries are
recorded timely.

Auditors’ Response

We will conduct follow-up procedures in FY 2013 to determine whether corrective
actions have been developed and implemented.

2. Controls over the Assessments Subsidiary Ledger Need Improvement
During the FY 2012 audit, we performed testing over the DCCA Special Fund’s
assessments billings and collections. In testing a sample of five assessment
overpayments for DCCA, we identified five instances in which the related balance in the
detailed subsidiary ledger did not agree with the balance confirmed by the insurance
carrier or self-insured employer. As a result, OWCP management reviewed the
accounts receivable subsidiary ledger and determined that the assessment


                                           U.S. Department of Labor – Office of Inspector General
                                    13                        Report Number: 22-13-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I



overpayment balances for 13 carriers and self-insured employers were overstated by
$408,256. These exceptions occurred because the OWCP did not record a final
assessment amount in the accounts receivable subsidiary ledger for those carriers that
did not receive a second assessment bill, which resulted in an error in the calculation of
ending balances. Further, the OWCP did not have any policies or procedures that
required someone other than the accountant who recorded the assessments activity to
periodically review the accounts receivable subsidiary ledger to ensure amounts were
correctly recorded.

In addition, we selected a sample of six assessment receivables for testing. Based on
our testing, we determined that the subsidiary ledger balance for 1 of the 6 assessment
receivables tested was overstated by $96,439. This exception was caused by a lack of
communication and coordination between the program personnel who prepared and
mailed the bills and the accountants that maintained the subsidiary ledger and financial
records.

The OWCP subsequently corrected the errors above for the year ended
September 30, 2012. However, without adequate management review there is an
increased risk that significant errors could occur and not be detected and corrected by
management in a timely manner.

The Standards state:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

To address the issues above, the OWCP Acting Director should develop and implement
policies and procedures that require someone other than the preparer to periodically
review the subsidiary ledger to ensure all required amounts, including the final
assessment, are accurately recorded for the carriers.

Management’s Response

Management concurs with the recommendations. Currently, assessments are billed in
January and July of the program year. In accordance with this schedule, the Lead
Accountant will review the subsidiary ledger subsequent to each billing cycle to ensure
that the amounts are accurately recorded for the carriers. As part of this review, the
Lead Accountant will select a sample of carriers from the final assessment and verify
the balances with the program office to provide additional assurance that final
assessments were correctly recorded even in situations where the carrier did not

                                           U.S. Department of Labor – Office of Inspector General
                                    14                        Report Number: 22-13-005-04-432
                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                          Significant Deficiencies
                                                                                          Exhibit I



receive a second assessment bill. Upon completion of each review, the Lead
Accountant will provide the results to the Accounting Officer for final review and
signature. Management agrees to amend the procedures to include this review and
verification.

Throughout the year, it may be possible for an assessment bill to be amended. When
this occurs, the program office has agreed to send a copy of the amended bill to the
Accountant as an email attachment. This will serve as the supporting documentation for
the change in the subsidiary ledger. The program office will amend their procedures to
include this process.

Auditors’ Response

We will conduct follow-up procedures in FY 2013 to determine if corrective actions have
been developed and implemented.




                                          U.S. Department of Labor – Office of Inspector General
                                   15                        Report Number: 22-13-005-04-432
                                        District of Columbia Workmen’s Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report

                                                   Status of Prior Year Findings and Recommendations
                                                                                            Exhibit II

The following table provides the fiscal year 2012 status of all recommendations included in the
Independent Auditors' Report on the U.S. Department of Labor’s (DOL) District of Columbia
Workmen’s Compensation Act Special Fund’s fiscal year 2011 Financial Statements, Report
No. 22-12-005-04-432 (March 1, 2012).

                       FY
Fiscal Year (FY)                                                                            FY 2012
                    Finding               FY 2011 Recommendations
 2011 Finding                                                                                Status
                   Originated

Internal Control
Controls     Over 2010 (as a    Recommendation: Design and implement
the      Financial Material     policies and procedures that require a
Reporting          Weakness)    comprehensive and detailed review of all
Process     Need                financial information in the draft financial
Improvement                     statements. The policies and procedures should
                                include:
                                a. Specific procedures for agreeing comparative
                                    prior year financial data to the prior year              Closed
                                    audited statements;
                                b. Comparing financial data reported on the
                                    different statements to ensure accuracy and              Closed
                                    consistency;
                                c. Reconciling the financial data between the
                                    general ledger and subsidiary ledgers to
                                                                                             Closed
                                    ensure     existence,     completeness,    and
                                    accuracy of financial data reported;
                                d. Performing a budgetary to proprietary account
                                    relationship analysis and resolving identified           Closed
                                    variances; and
                                e. Analyzing significant variances between
                                    current period and prior period financial                Closed
                                    information.
                                Recommendation: Develop monitoring controls                  Open
                                to ensure that sufficient supervisory review                 (See
                                controls over journal entries and the related              Exhibit I,
                                documentation are being performed before the               comment
                                journal entries are posted to the general ledger.            no. 1)




                                                U.S. Department of Labor – Office of Inspector General
                                          16                       Report Number: 22-13-005-04-432
                                           District of Columbia Workmen’s Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report


                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                                        Balance Sheets
                                 September 30, 2012 and 2011

                          Assets                                          2012               2011
Intra-governmental assets:
   Funds with U.S. Treasury (Note 1c and Note 2)                  $       1,429       $         353
   Investments, net (Note 1d and Note 3)                              2,914,000           4,042,000
            Total intra-governmental assets                           2,915,429           4,042,353
Accounts receivable, net (Note 1e and Note 4)                           616,091             129,142
           Total assets                                           $   3,531,520       $   4,171,495
                Liabilities and Net Position
Liabilities:
  Accrued benefits payable (Note 1f )                             $      92,981       $      47,943
  Deferred revenue (Note 1h)                                          2,020,771           1,999,941
  Other liabilities (Note 1g and Note 5)                                 77,259             154,247
            Total liabilities                                         2,191,011           2,202,131
Net position:
  Cumulative results of operations -- Other                           1,340,509           1,969,364
            Total liabilities and net position                    $   3,531,520       $   4,171,495


See accompanying notes to financial statements.




                                                   U.S. Department of Labor – Office of Inspector General
                                              17                      Report Number: 22-13-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report


                          DISTRICT OF COLUMBIA WORKMEN'S
                          COMPENSATION ACT SPECIAL FUND
                                    Statements of Net Cost
                        Years ended September 30, 2012 and 2011


                                                                      2012                  2011
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                    $     8,077,535      $     8,318,300
  Wage increase compensation, Section 10(h)                           474,895              504,351
  Compensation payment for self-insured employer
    in default, Section 18(b)                                         244,460               246,820
  Rehabilitation services, Section 39(c)                                  949                 3,790
           Net cost of operations                             $     8,797,839      $     9,073,261


See accompanying notes to financial statements.




                                               U.S. Department of Labor – Office of Inspector General
                                          18                      Report Number: 22-13-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report


                          DISTRICT OF COLUMBIA WORKMEN'S
                          COMPENSATION ACT SPECIAL FUND
                           Statements of Changes in Net Position
                         Years ended September 30, 2012 and 2011


                                                                       2012                 2011
Cumulative results of operations, beginning                   $     1,969,364      $      3,118,037
Budgetary financing sources:
  Non-exchange revenues (Note 1i):
    Investment interest                                                 1,229                 2,326
    Fines & penalties                                                  10,000                45,000
    Assessments                                                     8,157,755             7,877,262
       Total non-exchange revenues                                  8,168,984             7,924,588
Net cost of operations                                             (8,797,839)           (9,073,261)
       Cumulative results of operations and
         net position, end of period                          $     1,340,509      $      1,969,364


See accompanying notes to financial statements.




                                               U.S. Department of Labor – Office of Inspector General
                                          19                      Report Number: 22-13-005-04-432
                                         District of Columbia Workmen’s Compensation Act Special Fund
                                                   Financial Statements and Independent Auditors’ Report


                           DISTRICT OF COLUMBIA WORKMEN'S
                           COMPENSATION ACT SPECIAL FUND
                              Statements of Budgetary Resources
                          Years ended September 30, 2012 and 2011


                                                                      2012                   2011
Budgetary Resources:
  Unobligated balance, brought forward, October 1            $        4,017,839 $            5,493,754
  Budget authority (mandatory)
    Appropriations (assessments, mandatory)                           7,597,577              8,071,375
    Spending authority from offsetting collections                        1,258                  2,384
           Total budgetary resources                         $       11,616,674 $           13,567,513
Status of Budgetary Resources:
  Obligations incurred (Note 6)                              $        8,770,797 $            9,549,674
  Unobligated balances, end of year:
     Exempt from apportionment                                        2,845,877              4,017,839
            Total status of budgetary resources              $       11,616,674 $           13,567,513
Change in Obligated Balance:
  Unpaid obligations, brought forward, October 1             $           45,560 $               26,076
  Obligations incurred                                                8,770,797              9,549,674
  Less: Outlays (gross)                                              (8,725,759)            (9,530,190)
  Obligated balance, end of year                             $           90,598 $               45,560
Budget Authority and Outlays, Net:
  Budget authority, gross (mandatory)                        $        7,598,835 $            8,073,759
  Actual offsetting collections (mandatory)                              (1,258)                (2,384)
  Budget authority, net (mandatory)                          $        7,597,577 $            8,071,375
  Outlays, gross (mandatory)                                          8,725,759              9,530,190
  Actual offsetting collections (mandatory)                              (1,258)                (2,384)
  Outlays, net (mandatory)                                   $        8,724,501 $            9,527,806


See accompanying notes to financial statements.




                                                   U.S. Department of Labor – Office of Inspector General
                                              20                      Report Number: 22-13-005-04-432
                                           District of Columbia Workmen’s Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements 

                           Years ended September 30, 2012 and 2011



(1)    Summary of Significant Accounting Policies
      The principal accounting policies which have been followed in preparing the
      accompanying financial statements for the Fund are set forth below.
      (a)   Reporting Entity
            The District of Columbia Workmen’s Compensation Act (DCCA) Special Fund (the
            Fund) is administered by the Department of Labor (DOL), Office of Workers’
            Compensation Programs (OWCP), Division of Longshore and Harbor Workers’
            Compensation program (DLHWC). The DLHWC has direct responsibility for
            administration of the Fund. The Fund offers compensation, and in certain cases,
            medical care payments to District of Columbia employees for work related injuries
            or death incurred on or before July 26, 1982. Effective July 26, 1982, the District of
            Columbia Workmen’s Compensation Act was amended whereby the Mayor of the
            District of Columbia became responsible for administration and operation of a
            separate special fund to cover post July 26, 1982, injury cases.
            Additionally, the Longshore and Harbor Workers’ Compensation Act (LHWCA)
            Section 10(h) provides annual wage increase compensation (cost of living
            adjustments). Fifty percent of this annual wage increase for pre-1972 compensation
            cases is paid by the annual assessment. The remaining fifty percent is paid by the
            Federal Employees’ Compensation Act’s Special Benefit Fund through Federal
            Appropriations. Also, these financial statements do not include the special fund
            administered by the Mayor of the District of Columbia for injury cases occurring after
            July 26, 1982.
      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of operations,
            changes in net position and budgetary resources of the Fund, in accordance with
            U.S. generally accepted accounting principles and the form and content
            requirements of Office of Management and Budget (OMB) Circular A-136, Financial
            Reporting Requirements. These financial statements have been prepared from the
            books and records of the Fund. These financial statements are not intended to
            present, and do not present, the full cost of the DCCA Program (the Program). In
            addition to the Fund costs presented in these statements, the full cost of the
            Program would include certain direct costs of OWCP in the form of salaries and
            expenses for administration of the Fund and allocated costs of OWCP and other
            DOL agencies incurred in support of the Program. The full cost of the Program is
            included in the DOL consolidated financial statements and related notes. The Fund


                                                   U.S. Department of Labor – Office of Inspector General
                                              21                      Report Number: 22-13-005-04-432
                                    District of Columbia Workmen’s Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report

                     DISTRICT OF COLUMBIA WORKMEN’S
                     COMPENSATION ACT SPECIAL FUND
                         Notes to the Financial Statements
                    Years ended September 30, 2012 and 2011


      is considered a fiduciary activity of DOL, and is properly disclosed and reported in
      the consolidated financial statements of DOL as a fiduciary fund.
      U.S. generally accepted accounting principles encompass both accrual and
      budgetary transactions. Under accrual accounting, revenues are recognized when
      earned, and expenses are recognized when a liability is incurred. Budgetary
      accounting facilitates compliance with legal constraints on, and controls over, the
      use of Federal funds. These financial statements are different from the financial
      reports, also prepared by management pursuant to OMB directives, used to monitor
      the Fund’s use of budgetary resources.
(c)   Funds with U.S. Treasury
      The Fund’s cash receipts and disbursements are processed by the U.S. Treasury.
      Funds with U.S. Treasury represent obligated balances available to pay current
      liabilities and finance authorized purchase commitments.
(d)   Investments, Net
      Investments in U.S. Government securities are reported at cost, net of unamortized
      premiums or discounts, which approximate market value. Premiums or discounts
      are amortized on a straight-line basis, which approximates the effective interest
      method. The Fund’s intent is to hold investments to maturity, unless they are
      needed to finance claims or otherwise sustain the operations of the Fund. No
      provision is made for unrealized gains or losses on these securities because they
      are held to maturity. A portion of these investments is available for payment of
      compensation and medical benefits to covered employees of the defaulted
      company.
(e)   Accounts Receivable, Net
      The amounts due as receivables are stated net of an allowance for uncollectible
      accounts. The allowance is estimated based on past experience in the collection of
      the receivables and an analysis of the outstanding balances. Accounts receivable
      are comprised of assessments receivable and the Fund’s benefit overpayments to
      individuals primarily from awarded compensation orders and corrections of payment
      computations.




                                            U.S. Department of Labor – Office of Inspector General
                                      22                       Report Number: 22-13-005-04-432
                                     District of Columbia Workmen’s Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report

                      DISTRICT OF COLUMBIA WORKMEN’S
                      COMPENSATION ACT SPECIAL FUND
                          Notes to the Financial Statements
                     Years ended September 30, 2012 and 2011


(f)   Accrued Benefits Payable
      The Fund provides compensation and medical benefits for work related injuries to
      employees of the District of Columbia that were incurred on or before July 26, 1982.
      The Fund recognizes a liability for disability benefits payable to the extent of unpaid
      benefits applicable to the current period. Ultimate responsibility for the payment of
      such claims rests with the employer organizations.
(g)   Other Liabilities
      Other liabilities are comprised primarily of assessment overpayments by insurance
      carriers or self-insured employers which are to be refunded at the insurance carrier
      or self-insured employers request or applied to reduce future assessments. Also
      included in other liabilities are amounts received by the Fund from defaulted
      employers which are being held as security by authority of Section 32 of the
      LHWCA. These funds and investments are available for compensation and medical
      benefits to covered employees of the defaulted companies. Management estimates
      that these funds and investments held will be sufficient to cover the future benefits
      associated with the covered employees.
(h)   Deferred Revenue
      Deferred revenue represents the portion of assessment revenue extending beyond
      September 30, the Fund’s accounting year end. The annual assessments cover a
      calendar year and, accordingly, revenue extending beyond September 30 has been
      deferred. Deferred revenue reported on the balance sheets is considered “Other
      Liabilities” under OMB Circular A-136.
(i)   Financing Sources - Non-Exchange Revenue
      Non-exchange revenues arise from the Federal government’s power to demand
      payments from and receive donations from the public.
      The Fund’s primary source of revenue is annual assessments levied on insurance
      carriers and self-insured employers. Assessments are recognized as non-exchange
      revenue when due. The Fund receives interest on Fund investments and on Federal
      funds in the possession of non-Federal entities. The Fund also receives revenue
      from fines and penalties assessed in accordance with various sections of the
      LHWCA.




                                             U.S. Department of Labor – Office of Inspector General
                                       23                       Report Number: 22-13-005-04-432
                                               District of Columbia Workmen’s Compensation Act Special Fund
                                                         Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                  Notes to the Financial Statements
                           Years ended September 30, 2012 and 2011


      (j)    Reclassifications
             The presentation of the fiscal year (FY) 2011 Statement of Budgetary Resources
             was reclassified to conform to the FY 2012 Departmental financial statement
             presentation requirements. The reclassification had no effect on total Budgetary
             Resources.
(2)    Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2012 and 2011 consisted of cash deposits of
      $1,429 and $353 respectively. There were $30 in cash deposits at September 30, 2012
      and $1 in cash deposits at September 30, 2011 being held as security by authority of
      Section 32 of the LHWCA. These funds relate to the default of self-insured employers
      and are available for payment of compensation and medical benefits to covered
      employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2012 consisted of the following:
                                                    Entity Assets
                               Unobligated   Unobligated     Obligated
                                Balance       Balance       Balance Not       Total       Non-entity
      (In Dollars)              Available    Unavailable Yet Disbursed    Entity Assets    Assets      Total

      Trust Fund           $           —              —         1,429           1,429            —       1,429




      Funds with U.S. Treasury at September 30, 2011 consisted of the following:
                                                    Entity Assets
                               Unobligated   Unobligated     Obligated
                                Balance       Balance       Balance Not    Total          Non-entity
      (In Dollars)              Available    Unavailable Yet Disbursed Entity Assets       Assets      Total

      Trust Fund           $           —              —          353              353            —         353




                                                          U.S. Department of Labor – Office of Inspector General
                                                 24                          Report Number: 22-13-005-04-432
                                            District of Columbia Workmen’s Compensation Act Special Fund
                                                      Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S

                             COMPENSATION ACT SPECIAL FUND 

                                 Notes to the Financial Statements
                            Years ended September 30, 2012 and 2011


(3)    Investments, Net
      Investments at September 30, 2012 and 2011 consisted of the following:
                                                              September 30, 2012
                                            Face            Premium          Net               Market
      (In Dollars)                          Value          (Discount)      Value               Value
      Intragovernmental securities:
         Non-marketable:
            Par value                 $ 2,914,000                  —        2,914,000        2,914,000


                                                              September 30, 2011
                                            Face            Premium          Net                Market
      (In Dollars)                          Value          (Discount)      Value                Value
      Intragovernmental securities:
         Non-marketable:
           Par value                  $   4,042,000                —         4,042,000        4,042,000



      Investments of $58,800 and $58,800 at September 30, 2012 and 2011, respectively, are
      restricted assets that are being held as security by authority of Section 32 of the LHWCA.
      Investments at September 30, 2012 and 2011 consist of overnight securities.
      Investments at September 30, 2012 bear an interest rate of 0.05% compared to an
      interest rate of 0.00% at September 30, 2011. Interest rates on securities bought and
      sold during FY 2012 ranged from 0.00% to 0.12% compared to 0.00% to 0.18% for FY
      2011.




                                                      U.S. Department of Labor – Office of Inspector General
                                               25                        Report Number: 22-13-005-04-432
                                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                                 Financial Statements and Independent Auditors’ Report

                                DISTRICT OF COLUMBIA WORKMEN’S

                                COMPENSATION ACT SPECIAL FUND 

                                       Notes to the Financial Statements
                                Years ended September 30, 2012 and 2011


(4)    Accounts Receivable, Net
      Accounts receivable at September 30, 2012 and 2011 consisted of the following:
      (In Dollars)                                                                      2012                     2011

         Benefit overpayments                                                   $       79,598      $            106,243
         Assessments receivable                                                        537,010                    23,079
         Less: allowance for doubtful accounts                                            (517)                     (180)
           Total accounts receivable from the public, net                       $      616,091      $            129,142


      Assessments receivable represent the unpaid annual assessments. Accounts receivable
      from benefit overpayments to claimants arise primarily from amended compensation
      orders and corrections of payment computations. These receivables are primarily
      recovered by partial and total withholding of benefit payments.
      Changes in the allowance for doubtful accounts during FY 2012 and FY 2011 consisted
      of the following:
                                                                       2012

                                       Allowance               Write                       Allowance

      (In Dollars)                   October 1, 2011           Offs       Bad Debt     September 30, 2012


      Entity assets:

        Benefit overpayments    $              (122)               –            122                      –

        Assessment receivable                   (58)               –           (459)                    (517)


                                $              (180)               –           (337)                    (517)




                                                                       2011

                                       Allowance               Write                       Allowance

      (In Dollars)                   October 1, 2010           Offs       Bad Debt     September 30, 2011


      Entity assets:

        Benefit overpayments     $            (1,057)              –            935                  (122)

        Assessment receivable                   (316)              –            258                   (58)


                                 $            (1,373)              –           1,193                 (180)




                                                                  U.S. Department of Labor – Office of Inspector General
                                                          26                         Report Number: 22-13-005-04-432
                                                 District of Columbia Workmen’s Compensation Act Special Fund
                                                           Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                  COMPENSATION ACT SPECIAL FUND
                                       Notes to the Financial Statements 

                                Years ended September 30, 2012 and 2011



(5)    Other Liabilities
      Other liabilities at September 30, 2012 and 2011 consisted of the following liabilities:

      (In Dollars)                                                      2012                2011
      Other liabilities:
         Assessment overpayments by carriers                    $         18,429    $        95,446
         Defaulted employer liability:
           Held in investments                                            58,800             58,800
           Held in cash                                                       30                  1
                                                                          58,830             58,801
                     Total other liabilities                    $         77,259    $       154,247




      Assessment overpayments are to be refunded upon request or applied to reduce future
      assessments.
      Defaulted employer liability relates to the funds and investments held by the District of
      Columbia Special Fund which are being held as security by authority of Section 32 of the
      LHWCA. These funds and investments are available for compensation and medical
      benefits to covered employees of the defaulted companies. Management estimates that
      these funds and investments held will be sufficient to cover the future benefits associated
      with the covered employees.




                                                         U.S. Department of Labor – Office of Inspector General
                                                    27                      Report Number: 22-13-005-04-432
                                           District of Columbia Workmen’s Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S

                           COMPENSATION ACT SPECIAL FUND 

                                Notes to the Financial Statements
                         Years ended September 30, 2012 and 2011


(6) 	 Status of Budgetary Resources
   (a) 	 Apportionment Categories of Obligations Incurred
        Obligations incurred reported on the Statement of Budgetary Resources in FY 2012
        and FY 2011 consisted of the following:
        (In Dollars)	                                                      2012              2011
        Direct Obligations:
           Exempt from apportionment                             $        8,770,797    $    9,549,674


   (b) 	 Explanation of Differences Between the Statement of Budgetary Resources
         and the Budget of the United States Government
        A reconciliation of budgetary resources, obligations incurred and outlays, as
        presented in the Statement of Budgetary Resources to amounts included in the
        Budget of the United States Government for the year ended September 30, 2011 is
        shown below:
                                                                             2011
                                                            Budgetary        Obligations
        (Dollars in Millions)                               Resources         Incurred       Outlays
        Statement of Budgetary Resources - LHWCA,       $         185                 127        128
           reported separately

        Statement of Budgetary Resources - DCCA	                     14                10           10
        Adjustments included in the Statement of
         Budgetary Resources                                         2                  2           1

        Total Statement of Budgetary Resources	                   201                 139        139

        Budget of the United States Government          $         201                 139        139




                                                    U.S. Department of Labor – Office of Inspector General
                                              28                       Report Number: 22-13-005-04-432
                                               District of Columbia Workmen’s Compensation Act Special Fund
                                                         Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S

                                 COMPENSATION ACT SPECIAL FUND 

                                   Notes to the Financial Statements
                             Years ended September 30, 2012 and 2011


(7)    Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                           2012              2011
        Resources used to finance activities
          Budgetary resources obligated
            Obligations incurred                                    $     8,770,797 $        9,549,674
        Total resources used to finance activities                        8,770,797          9,549,674
        Resources used to finance items not part

          of the net cost of operations

          Resources that finance expenses recognized
             in prior periods                                                     –           (507,862)
        Total resources used to finance items
          not part of the net cost of operations                                  –           (507,862)
        Total resources used to finance the
          net cost of operations                                          8,770,797          9,041,812
        Components of net cost of operations that

          will not require or generate resources in

          the current period

          Revaluation of assets and liabilities                                (122)              (935)

          Other                                                              27,164             32,384

        Total components of net cost of operations
          that will not require or generate resources
          in the current period                                              27,042             31,449

        Net cost of operations                                      $     8,797,839 $        9,073,261




(8) Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at a
      time for current expenses; there is no reserve for future Fund obligations. In keeping with
      the requirement of Section 44 of the LHWCA, obligations are paid as they are incurred.
      Assessments are based on compensation and medical benefits paid in the prior calendar
      year. As previously discussed, the District of Columbia Workmen’s Compensation Act of
      1928 has been repealed and the Fund only assesses based on payments in cases that
      arose on or before July 26, 1982. Therefore, the annual assessment is assessed for a
      shrinking population of claims.




                                                          U.S. Department of Labor – Office of Inspector General
                                                     29                      Report Number: 22-13-005-04-432
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
